December 3,2008


The Honorable Robert A. Brady
Chairman
Joint Committee on Printing
1309 Longworth House Office Building       ,


Washington, DC 205 15

Dear Mr. Chairman:

In accordance with 44 U.S.C. 3903 and the relevant provisions of the Inspector
General Act of 1978, as amended, I am transmitting to the Congress the
Semiannual Report of the Office of the Inspector General (OIG) for the U.S.
Government Printing Office (GPO), covering the 6 month period of April 1,2008,
through September 30,2008, along with the following information as required by
law. This letter meets my statutory obligation to provide comments on the OIGYs
report and highlights management actions taken on the OIG's recommendations,
which may relate to more than one reporting period.

General Comments

As provided for by law, this section offers my general comments on the OIG's
semiannual report and operations.

       Management Challenges.

       1. Strategic Planning: As previously reported, GPO's strategic
       performance plan and achievements are being cascaded down to every
       employee with the implementation of performance standards for FY 2009.
       The pIan states GPO's goals, objectives, and significant achievements. To
       carry out GPO's Strategic Vision,each business unit is developing its own
       strategic plan that ties directly into the GPO's overall goals, objectives,
       and scorecard.

       2. Management of Human Capital: GPO's offices of Human Capital and
       Equal Employment Opportunity (EEO) are collaborating on GPO's
       diversity program. EEO personnel are regular contributors in the weekly
       Human Capital staff meetings and the two offices work closely together
       on the recruitment process. In FY 2009, Human Capital will develop and
       implement a new succession planning process that will include an internal
The Honorable Robert A. Brady - Page 2


      Senior Level Service (SLS) Candidate Development Program. This
      program will expand diversity efforts currently in place at the mid-
      manager level to GPO's Senior Level positions. Human Capital is          .

      currently conducting the 2008 Employee Climate Survey and while the
      survey is still underway the employee participation rates are significantly
      higher than they were in 2006.

      3. Improved Financial Management: GPO continued to implement the
      Oracle system. The progress of this project is reported to the Deputy
      Public Printer and tracked monthly via GPO's balanced scorecard.

      4. Continuity of Operations (COOP): GPO continued COOP planning
      functions. As previously reported, GPO is adopting planning
      requirements and critical elements identified in Federal Preparedness
      Circular 65, "Federal Executive Branch Continuity of Operations."
      During the reporting period, GPO participated in COOP exercises with the
      Senate and the Office of the Federal Register, National Archives and
      Records Administration, as well as conducted internal exercises to validate
      progress in meeting COOP readiness goals for its primary mission
      essential functions.
      5. Internal Controls: GPO financial management works cIosely with the
      OIG and KPMG during the course of both regular internal audits as
      conducted by the OIG and the annual audit as conducted by KPMG.
      During the quarter, GPO returned approximately $52 million to the State
      Department: in over-recovered billings for passport production during FY
      2008.

      6. Security and Intelligent Documents (SID): During the reporting
      period, GPO's SID operation began developing support for the issuance of
      secure credentials for the upcoming congressional inaugural event, in
      cooperation with the U.S. Capitol Police and the Joint Congressional
      Committee on Inaugural Ceremonies. GPO has provided extensive
      information on its e-passport program in response to inquiries from the
      House Committee on Energy and Commerce, the Senate Committee on
      Rules and Administration, the Joint Committee on Printing, and the State
      Department. GPO is working with the Government Accountability Office
      (GAO) in a review of the e-passport program that was requested by the
      House Committee on Energy and Commerce.

      7. Supporting Congressional Printing: Management continues to monitor
      delivery times for congressional products and services.
The Honorable Robert A. Brady - Page 3


      8. Information Technology and Systems (IT&S) Management: GPO has
      created a technical reference model, which is an inventory of technologies
      used to support IT&S initiatives, and an Architecture Review Board to
      review and modify the model as required; a new policy outlines these
      activities. The second release of Oracle, which replaces a number of
      legacy systems, will be operational early in 2009. The first public release
      of the Federal Digital System (FDsys) will be operational in early 2009.
 .    This release of the FDsys will begin to replace GPO Access; all GPO
      Access content will be moved into FDsys by mid-2009. IT&S will also
      roll out a Web-based time and attendance system in FY 2009. IT&S
      continues to make progress on developing IT security systems. Public
      Key Infrastructure (PKT) is being used to accept authenticated information
      fiom some customer agencies, and GPO has begun offering digitally
      signed information to the general public through GPO Access. FDsys is
      incorporating PKI digital signatures in the first public release of the
      system, initially signing public and private laws, and eventually more
      publications as required. Independent validation and verification
      programs applied by OIG to IT&S initiatives are also useful.

      9. Customer Service: During the reporting period GPO continued
      implementing actions to improve customer service that were identified in
      the results to the 2007 customer satisfaction survey.

      10. Acquisition: GPO's Acquisition group has been instrumental in
      supporting the agency's contracting needs. To ensure that the Acquisition
      staff is equipped to meet the evolving technical requirements of the
      agency, the Federal Acquisition Institute/Defense Acquisition University
      Certification Program for acquisition professionals was been adopted.
      Through this training, Acquisition professionals are trained in the most
      modem and acceptable practices of Federal acquisitions. This program is
      required of all acquisition professionals in the 1102 series in the executive
      branch. Since the program's adoption in October 2007,98% of all of the
      GPO Acquisition staff have been certified as Level I, 48% certified as
      Level 11, and 20% axe certified as Level 111. Additionally, staff members
      are being trained in best practices related to environmental or "green"
      acquisitions. These training initiatives have allowed for efficient and
      effective acquisition of non-traditional types of procurements and have
      allowed the GPO Acquisition staff to better support GPO's business units.

      11. Other: GPO is working with the GAO in a review of GPO's proposal
      for a new building and the legislative and budget scoring implications of
      that proposal. The review was requested by the Delegate fi-om the District
      of Columbia. GPO is also working with the GAO in a review of its
The Honorable Robert A. Brady - Page 4


      security force that was requested by the Chair of the House Legislative   '




      Branch Appropriations Subcommittee and the Chairman of the Joint
      Committee on Printing.

11.   Audits and Inspections. During the reporting period, the OIG issued 7
      new audit and assessment reports, with recommendations to help improve
      operational performance:

             Protection of E-Passport Production System (PPPS) (Assessment
             Report 08-07,May 30, 2008). The OIG issued a sensitive report
             containing recommendations to help strengthen controls over the
             computer applications and operating systems that support
             production of passports. Management acted to implement the
             recommendations.

             Federal Digital System Independent VeriJcation and Validation -
             Third Quarter Observations and Recommendations (Assessment
             Report 08-08, August 8, 2008). As previously reported, the OIG is
             conducting, through a contractor, an independent verification and
             validation (IV&V) of program management, technicaI and testing
             plans, and other efforts related to the development of the Federal
             Digital System (FDsys). A previous OIG report identified several
             weaknesses that could lead to increased risk and cost overrun if left
             uncorrected. In response, GPO implemented a reorganization of
             the relationship of GPO and the FDsys contractor as well as a new
             design for FDsys. For the third quarter the EDsys IV&V issued
             recommendations to further strengthen the program that
             management has agreed to implement.

             Follow-up Audit of Centrally Charged Travel Expenditures (Audit
             Report 08-09, August 8, 2008). The OIG performed a follow-up to         .
             a 2006 audit of GPO's travel expenses and identified continuing
             program deficiencies. The follow-up resulted in 3
             recommendations that management agreed to implement.

             Diversity Management Programs at GPO (Audit Report 08-10,
             September 11, 2008). The Chairman of the House Subcommittee
             on Federal Workforce, Postal Service, and the District of
             Columbia, requested legislative branch agency IG's to evaluate
             their respective agencies' diversity programs to address specified
             concerns. The resulting report contained 2 recommendations for
             GPO's diversity program that are pending approval by the Public
             Printer.
The Honorable Robert A. Brady - Page 5


              WebTmst Assessment of GPO 's CertiJicationAuthoriq -
              Attestation Report (Assessment Report 08-11, September 18,
              2008). The OIG conducted an evaluation of whether
              management's assertions related to the adequacy and effectiveness
              of its controls over its public key infrastructure (PKI) Federal
              bridge certification authority are fairly stated, based on
              recommended principles and evaluation criteria. The evaluation
              resulted in an unqualified, or clean, opinion for management's
              assertions.

             Assessment of GPO 's Transition Planning for Internet Protocol
             Version 6 (Assessment Report 08-12)September 30, 2008). The
             0IG assessed management's planning for the transition from
             Internet Protocol version 4 to version 6, which is going on
             Government-wide, as part of management's plan to upgrade its
             information technology infi-astructure. The assessment resulted in
             2 recommendations that management agreed to implement.

             Oracle E-Business Suite Release 2 Independent Verification and
             Validation - Program Management (Assessment Report 08-13,
             September 30,2008). As with FDsys, the OIG, through a
             contractor, is conducting an IV&V analysis of GPO's
             implementation of Oracle. This report contained 4
             recommendations that management agreed to implement.

      Other OIG Audits and Inspections. The OIG contihued implementing
      TearnMate audit software to improve the efficiency of its audit process
      and conducted an external peer review of the Board of Governors of the
      Federal Reserve System's Inspector General audit organization. During
      the reporting period, KPMG audited GPO's FY 2008 financial statements
      as well as the status of actions to correct deficiencies identified during the
      FY 2007 audit.

      Prior Period Outstand-ingRecommendations. As required by law, this
      section summarizes management's planned action to address remaining
      OIG recommendations still outstanding fkom previous reporting periods.

             GPO Network Vulnerability Assessment (Assessment Report 06-02,
             March 28, 2006). Management continues to work on closing the
             remaining 2 open recommendations.
The Honorable Robert A. Brady - Page 6


              GPO Oracle Program Stakeholder Analysis (AssessmentReport
              06-03, March 31, 2006). Management continued to work toward
              resolution of the remaining 6 open recommendations.

              Report on Early Oracb Implementation: Independent Verification
              and Validation (Assessment Report 07-01, November 20,2006).
              Nine open recormqendations continue to be addressed.

              Report on GPO's Compliance with the Federal Information
              Security Management Act (FISMA) (Assessment Report 07-09,
              September 27, 2007). Following the reporting period, 4
              recommendations were reported closed; management continues to
              address the remaining 7 open recommendations.

              Report on Perimeter Security Assessment of a GPO Building
              (Assessment Report 07-10, September 28, 2007). One
              recommendation was closed and management continues to address
              the remaining 2 open recommendations.

              GPO Network VulnerabilityAssessment (Assessment Report 08-01,
              November 1, 2007). Five of the original 7 recommendations were
              closed prior to the reporting period; management continues to
              address the remaining 2 open recommendations.

              Federal Digital System (FDsys) Independent Ver$cation and
              Validation ( I V ' V ) - Firist Quarter Observations and
              Recommendations (AssessmentReport 08-04, March 28,2008).
              O f the 13 original OIG recommendations, 8 were reported closed
              after the reporting period, 2 were closed prior to the reporting
              period, and management continues to address the remaining 3 open    .
              recommendations.

              Operating System Security for GPO's Passport Printing and
              Production System (Assessment Report 08-06, March 31, 2008).
              Seven recommendations were reported closed after the reporting
              period; management continues to address the sole remaining open
              recommendation.

111.   Investigations. During the reporting period, the OIG performed
       investigative work on workers' compensation fraud, procurement fraud,
       employee misconduct, and miscellaneous matters. As the OIG reports,
       this work resulted in referral of 8 investigative matters to the Justice
       Department for prosecution. Three GPO employees were indicted for
The Honorable Robert A. Brady - Page 7


       physical abuse of another GPO employee. OIG investigations into
       workers' compensation fraud resulted in forfeitures and other savings to
       the Government and helped manage GPO's sick/injured administrative
       costs. Investigations into procurement fraud and employee misconduct
       uncovered abuses which were referred for corrective and in some cases
       prosecutorial action.

       Statistical Tables.

       Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Sherman, Director of Congressional Relations,
on 202-5 12-199 1, or by e-mail at asherman@gpo.gov.

Sincerely,




ROBERT C. TAPELLA
Public Printer

Enclosures

cc:    The Honorable Diane Feinstein, Vice Chairman
       The Honorable Robert Bennett, Ranking Minority Member
       The Honorable Michael E. Capuano
       The Honorable Susan A. Davis
       The Honorable Vernon J. Ehlers
       The Honorable Kevin McCarthy
       The Honorable ~ k i eK.
                             l Inouye
       The Honorable Patty Murray
       The Honorable Saxby Chambliss
                   STATISTICAL TABLE FOR SECTION 5(b)(2) - DISALLOWED COSTS

                                                         Number of       Disallowed Costs
                                                        Audit Reports Questioned Unsuwworted
A.      Audit reports for which final action1had
        not been taken by the commencement
        of the reporting period                                0             0              0

        Audit reports issued during the period
        with potential disallowed costs

        Total Costs                                            0            0              0

B.      Audit reports on which management
        decisions2were made during the
        reporting period

        ( i.)   Dollar value of disallowed costs              1

        (ii.)   Dollar value of allowed costs                 0

C.      Audit reports for which 'final action -
        was taken during the period, including:
        ( i.)   Dollar value of disallowed costs               0
                that were recovered by management
                through offsets against other
                contractor invoices or nonpayment

       (ii.)    Dollar value of disallowed costs
                that were written off by management

D.     Audit reports for which no final
       action has been taken by the end
       of the reporting period




1
  As defined by law, the term "final action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
  As defined by law, the term "management decision" means the evaluation by management of the
findings and recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE I1


     STATISTICAL TABLE FOR SECTION 5(b)(3) - FUNDS PUT TO BETTER USE
                 AGREED TO IN A MANAGEMENT DECISION

                                                       Number of       Dollar Value of
                                                       Audit Reports   Recommendations
A.      Audit reports for which final action3had
        not been taken by the commencement of
        the reporting period

        Audit reports for which final action had
        not been taken for new reports issued
        during the reporting period with potential
        funds put to better use

B.     Audit reports on which management
       decisions4were made during the reporting
       period

C.     Audit reports for which final action was
       taken during the reporting, including:

       ( i.)   Dollar value of recommendations
               that were actually completed

       (ii.)   Dollar value of recommendations
               that management has subsequently
               concluded should not or could not
               be implemented or completed

D.     Audit reports for which no final action has
       been taken by the end of the reporting period




 Same definition as in Enclosure I.
 Same definition as in Enclosure I.
